.COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

Web Site
www.coCklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-881
HUONG L. TRAN and RICHARD W. HAZEN,
Petitioners,
v.

CITY OF HOLMES BEACH, FLORIDA;
‘ CITY OFFICIALS in Official Capacity; FLORIDA
DEPARTMENT OF ENVIRONMENTAL PROTECTION;
DEPARTMENT OFFICIALS in Official Capacity,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2008 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of April, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL KQTARY-Stats of Nebraska

I

RENEE J.QOSS

&i My Comm. Exp. September 5,2023

Notary Public v

Affiant .

40868

